Audit Report 97-02
BUREAU OF PRISONS COMMISSARY TRUST FUND
MANAGEMENT LETTER REPORT
FISCAL YEAR 1995
Audit Report 97-02, (11/96)
TABLE OF CONTENTS
OFFICE OF THE INSPECTOR GENERAL COMMENTARY AND SUMMARY
MANAGEMENT LETTER
RECONCILIATION OF FUND BALANCE WITH TREASURY
ADHERENCE TO DOCUMENTED BUREAU OF PRISONS PROCEDURES
APPENDIX I - BUREAU OF PRISONS RESPONSE
APPENDIX II - AUDIT DIVISION ANALYSIS AND SUMMARY OF ACTIONS
NECESSARY TO CLOSE THE REPORT
OFFICE OF THE INSPECTOR GENERAL
COMMENTARY AND SUMMARY
The attached management letter was prepared by Brown & Company, Certified Public
Accountants, as part of their audit of the BOP Commissary Trust Fund financial statements
for the year ended September 30, 1995 (Report 96-15A). Federal correctional facilities
have been granted the authority to operate Trust Fund Programs to provide inmates with
products and services which they were accustomed to in civilian life but which are not
provided by the Bureau of Prisons (BOP). Inmates are permitted to purchase these items as
a privilege which may be taken away at the discretion of BOP personnel. The funds from the
operation of the Trust Fund Program are accounted for in a revolving account (Commissary
Trust Fund) maintained by the BOP Trust Fund Branch.
The Office of the Inspector General (OIG) contracted with Brown & Company to
perform the audit. The OIG also performs an oversight role in the process to ensure
compliance with the Chief Financial Officers Act of 1990. OIG oversight includes
monitoring the progress of the audit, reviewing supporting workpapers, coordinating
issuance of reports, following up on findings and management letter issues, and performing
other functions deemed necessary under the circumstances. The audit was conducted in
accordance with generally accepted government auditing standards.
Although the auditors were not contracted to perform control testing sufficient to
enable them to express an opinion on the internal control structure as a whole, they noted
certain conditions involving the internal control structure and its operations. The
management letter presents those internal control weaknesses that, in the independent
auditor's opinion, do not have a material effect on the financial statements, but are
areas of the management process that could, in some cases, adversely affect the
organization's ability to record, process, summarize, and report financial data.
In this management letter, Brown & Company noted conditions pertaining to two
areas: reconciliation of the fund balance with Treasury and adherence to documented BOP
procedures. Strengthening internal controls in these areas is considered to be important
and presents an opportunity to improve operating efficiency.
APPENDIX I
APPENDIX II
OFFICE OF THE INSPECTOR GENERAL AUDIT DIVISION
ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
TO CLOSE THE REPORT
BUREAU OF PRISONS COMMISSARY TRUST FUND
MANAGEMENT LETTER REPORT FISCAL YEAR 1995
Resolved. This recommendation can be closed when we receive a copy of the
most recent monthly consolidated reconciliation.
Resolved. This recommendation can be closed when we receive a copy of the
BOP document requiring the Finance Office and Regional Offices to closely monitor
differences at each institution and an example of recent monitoring activities and
results.
Closed. Subsequent to their response, the Trust Fund Branch provided
documentation of the supervisory training referred to in Appendix I.
Resolved. While we agree with the need to review staff work via
performance evaluations, the recommendation addresses the need to ensure that day to day
work of new hires and reassigned staff is reviewed by a supervisor to ensure the timely
detection of errors. This recommendation can be closed when we receive documentation from
management reemphasizing the need for supervisory personnel to review the work of newly
hired or reassigned staff to ensure that transactions are processed correctly and errors
detected and corrected in a timely manner.
#####